APPENDIX A Decision, Subject of this Writ

'>

mm

Supreme Court of ©tjto

APR12 ®i

I onnCLERK0FCOURT
LjyPREMECgURTOFOHIO
In re Disqualification of Hon. David Stucki

Supreme Court Case No. 21-AP-048
JUDGMENT ENTRY AND DECISION

On Affidavit of Disqualification in Jill Lasheen v. Wael Lasheen, Cuyah
oga
County Court of Common Pleas, Domestic Relations Division
Case No. DR-19-379428.
Defendant Wael Lasheen has filed an affidavit pursuant to R.C. 2701.03 and Article IV
Section 5(C) of the Ohio Constitution seeking to disqualify Judge David E.
sitting by assignment, from the above-referenced divorce

Stucki, a retired judge

case. This is the third affidavit of

disqualification that Mr. Lasheen has filed regarding this matter, although his previ

ous affidavits

were against different judges. The first affidavit was denied after the judge recused herself. See
Supreme Court case No. 20-AP-068. The second affidavit was denied because Mr. Lashe

en failed
to include any specific allegations of bias against the judge. See Supreme Court case No. 20-AP075. According to Mr. Lasheen, all judges of the domestic-relation

s court thereafter recused

themselves from his case, and the matter was assigned to Judge Stucki.
In his present affidavit, Mr. Lasheen requests Judge Stucki’s disqualification for
reasons . Primarily, Mr. Lasheen suggests that the judge has

several

some sort of conflict of interest

because he is a past officer in the National Council of Juvenile and Family Court Judg

es and the
plaintiffs counsel is a past president of the Cleveland Metropolitan Bar Association. Mr. Lasheen
also alleges that a court scheduler and court reporter engaged in fraudulent
Stucki is responsible for their actions.

conduct and that Judge

In disqualification requests, “[t]he term ‘bias or prejudice’ ‘implies a hostile feeling or
spirit of ill-will or undue friendship or favoritism toward one of the litigants or his attorney,

with

the formation of a fixed anticipatory judgment on the part of the judge, as contradistinguished from
an open state of mind which will be governed by the law and the facts. *

In re Disqualification

ofO’Neill, 100 Ohio St.3d 1232, 2002-Ohio-7479,798 N.E.2d 17,114, quoting State ex rel. Pratt
V. Weygandt, 164 Ohio St. 463. 469, 132 N.E.2d 191 (1956). “The proper test for determining
whether a judge’s participation in a case presents an appearance of impropriety is * * *
an objective
one. A judge should step aside or be removed if a reasonable and objective observer would harbor
senous doubts about the judge’s impartiality.” In re Disqualification of Lewis, 117 Ohio St.3d
1227, 2004-Ohio-7359, 884 N.E.2d 1082, 1 8. In addition, a “presumption of impartiality” is
accorded all judges in affidavit-of-disqualification proceedings.

In re Disqualification of

Celebrezze, 101 Ohio St.3d 1224, 2003-Ohio-7352, 803 N.E.2d 823, 7.
Mr. Lasheen has not established that Judge Stucki has hostile feelings toward him or has
formed a fixed anticipatory judgment on any issue in the underlying case. Nor has Mr. Lasheen
set forth a compelling argument for disqualifying Judge Stucki to avoid an appearance of bias.

Mr.
Lasheen has not sufficiently explained-let alone established-how the judge's involvement i
ma
judicial membership organization creates any conflict of interest.
And Mr. Lasheen has failed to
substantiate his allegations that certain court staff engaged in misconduct and that Judge Stucki
should be held responsible for their actions,

Allegations that are based solely on hearsay,

innuendo, and speculation * * * are insufficient to establish bias or prejudice.”

In re

Disqualification ofFlanagan, 127 Ohio St.3d 1236,2009-0hio-7199,937 N.E.2d 1023, % 4.
The affidavit of disqualification is denied. The case may proceed before Judge Stucki.

2

Dated this 12th day of April, 2021.

MJUX&Jl*.

fig v

MAUREEN O’CONNOR
Chief Justice

Copies to:

Sandra H. Grosko, Clerk of the Supreme Court
Hon. David E. Stucki
Nailah K. Byrd, Clerk
Wael Lasheen
Barbara Roman

3

Additional material
from this filing is
available in the
Clerk's Office.

